Report No. C-IN-BIA-0015-2004   August 2005
            United States Department of the Interior

                             Office of Inspector General
                                    Central Region Audits
                                134 Union Boulevard, Suite 510
                                  Lakewood, Colorado 80228




                                                                     August 29, 2005

Memorandum

To:      Assistant Secretary for Indian Affairs




Subject: Final Audit Report on the Bureau of Indian Affairs Use of Facilities
         Improvement and Repair Funds (Report No. C-IN-BIA-0015-2004)

        This report presents the results of our audit of the Bureau of Indian Affairs’ (BIA)
use of facilities improvement and repair (FI&R) funds for new school construction.
During our previous audit of the BIA’s school construction planning and design process,
we noted that BIA was using FI&R monies to fund school construction projects. We
concluded that this use of FI&R funds was questionable. This report contains three
recommendations to address this matter.

        In the response to the draft audit report (Appendix 3), the Acting Assistant
Secretary for Indian Affairs concurred with Recommendations 1and 2 and did not concur
with Recommendation 3. Concerning Recommendations 1 and 2, the Assistant
Secretary’s concurrence was based on BIA’s interpretation of the authorizing legislation.
BIA, however, did not provide support for its interpretation. Accordingly, we have asked
BIA to provide additional support for its conclusions. BIA’s response to
Recommendation 3 did not specifically address our recommendation for corrective
action. Therefore, we consider Recommendation 3 unresolved and are requesting BIA to
reconsider its response. We request that BIA provide us with the information indicated in
Appendix 4 by September 29, 2005.

       The legislation, as amended, creating the Office of Inspector General requires that
we report to Congress semiannually on all audit reports issued, actions taken to
implement our audit recommendations, and recommendations that have not been
implemented.

       We appreciate the cooperation provided by the BIA staff during our audit. If you
have questions regarding this report, please call me at (303) 236-9243.
TABLE OF CONTENTS
                                                                                                                          PAGE

INTRODUCTION ............................................................................................ 1

        BACKGROUND ....................................................................................................     1


RESULTS OF AUDIT ...................................................................................... 3

        BIA-OPERATED SCHOOLS .................................................................................              3

        TRIBAL-CONTROLLED SCHOOLS ........................................................................                  4


RECOMMENDATIONS .................................................................................                           5

APPENDICES

        1. SCOPE AND METHODOLOGY ........................................................................                   9

        2. PRIOR AUDIT COVERAGE ............................................................................. 11

        3. BIA RESPONSE TO DRAFT REPORT ............................................................. 13

        4. STATUS OF AUDIT RECOMMENDATIONS ...................................................... 17




                                                             i
This Page Intentionally Left Blank




                ii
INTRODUCTION
             During our audit of the Bureau of Indian Affairs’ (BIA) process
             to plan and design replacement schools (Report No. 2003-I-
             0070), we concluded that BIA was inappropriately using
             facilities improvement and repair (FI&R) program funds for
             school construction projects. This report presents our findings
             and recommendations about this matter.

BACKGROUND   BIA’s Office of Facilities Management and Construction
             (OFMC) is responsible for maintaining, constructing, and
             renovating about 187 schools with over 2,100 buildings. OFMC
             carries out the major renovation, upgrade, and repair of schools
             through its FI&R program. When renovation, upgrade, or repair
             is deemed impractical due to cost constraints or other issues,
             OFMC can provide funds for the replacement construction of an
             entire school facility or major portions of existing schools.
             OFMC uses a separate funding process and Congressionally
             mandated prioritization process for school construction. OFMC
             provides FI&R and construction funds to both BIA-operated and
             tribal-controlled schools.

             BIA delivers funds appropriated for FI&R and construction to
             tribal-controlled schools either through contracts or grants
             authorized by the Indian Self Determination Act (Public Law
             93-638) or the Tribally Controlled School Grants Act (Public
             Law 100-297). Congress amended the Tribally Controlled
             School Grants Act on two occasions to address the use of FI&R
             funds. The first amendment required grantees to maintain
             separate and distinct accounts for FI&R and for school
             construction. It also stipulated that FI&R funds and school
             construction funds cannot be used for purposes other than
             originally intended. The second amendment authorized the use
             of FI&R funds for school construction at tribal-controlled schools
             if the schools provided at least 25 percent of the construction
             costs. Congress subsequently included these requirements in the
             No Child Left Behind Act of 2001, as amended (25 U.S.C.
             § 2504(a)(1)). There was no authority granted to BIA-operated
             schools for using FI&R funds for school construction.




                                   1
This Page Intentionally Left Blank




                2
RESULTS OF AUDIT
                              We found that BIA:

                                 ¾ Used FI&R funds for school construction projects at
                                   BIA-operated schools.

                                 ¾ Failed to collect the required cost-share contributions
                                   from tribal-controlled schools which received FI&R
                                   funds for school construction projects.

                              During fiscal years 2000 through 2002, we believe that BIA
                              violated statutory requirements by funding about $52 million in
                              new or replacement school facility construction with major FI&R
                              funds.

BIA-Operated                  BIA used $11.6 million of FI&R funds for school construction
Schools                       projects at four BIA-operated schools. However, the Congress
                              authorized1 the use of FI&R funds for school construction
                              projects only for “tribally-controlled” schools. BIA used FI&R
                              funds for construction projects at the following BIA-operated
                              schools.


                                                          Amount
                                                           Used           Project Description
                                     School                 For
                                                        Construction
                                                        (In Thousands)
                               Mariano Lake                              New (not replacement)
                               Community School           $ 2,904        gymnasium and library
                               Riverside Indian                          New (not replacement)
                               School Project #1            2,708        residential facility and
                                                                         replacement science
                                                                         laboratory and
                                                                         vocational shop
                               Riverside Indian
                               School Project # 2           4,184        Replace a gymnasium
                               Bread Springs Day                         Replace multi-purpose
                               School                          55        space
                               Chinle Boarding                           Replace two dormitory
                               School                       1,708        buildings

                                      Total               $11,631


1
    25 U.S.C. § 2504(a)(1).

                                                    3
Tribal-Controlled         BIA did not request or collect the required 25 percent cost-share
Schools                   of $10.2 million2 from tribal-controlled schools that received
                          $40.6 million of FI&R funds to pay the total costs of the
                          construction projects. BIA and Department officials told us that
                          they believed the use of FI&R funds for construction was
                          justified on some projects because:

                              ¾ The projects were already approved through the budget
                                process. That is, the budget justification identified these
                                projects as construction to be built with FI&R funds.

                              ¾ It would be more economical to replace some facilities
                                than repair them.

                              ¾ The 25 percent cost share requirement would unfairly
                                favor tribes with more abundant resources.

                          While these reasons may have merit, BIA did not seek or obtain
                          relief from the statutory requirements. According to our Office
                          of General Counsel, the statute is clear and unambiguous on this
                          issue:

                                   ...based upon the plain language of the statute...
                                   FI&R funds may not be used for new construction
                                   for any BIA funded schools3 absent the one-
                                   quarter contribution. Section 2504(b)(4)
                                   specifically states that “a school receiving a
                                   grant under this chapter for facilities
                                   improvement and repair may use such grant funds
                                   for new construction if the tribal government or
                                   other organization provides funding for new
                                   construction equal to at least one-fourth of the
                                   total costs of such new construction.” [Emphasis
                                   added.]

                          During the audit, BIA provided us with a program review titled
                          “Plan to Ensure the Integrity of School Construction Grants,”
                          which demonstrates that BIA knew of the restrictions on the use
                          of the FI&R funds. In the plan, BIA recommended that Congress
                          delete the 25 percent cost share requirement. However, BIA
                          continued to use the funds without obtaining relief from the
                          requirement or contributions from the tribes.



2
 25 percent of $40.6 million
3
 25 U.S.C. § 2021(3) defines the term “Bureau funded school” as (A) a Bureau school; (B) a contract or
grant school; or (C) a school for which assistance is provided under the Tribally Controlled Schools Act of
1988, 25 U.S.C. § 2501 et seq.

                                                     4
                       BIA provided FI&R funds to the following tribal-controlled
                       schools for construction projects:


                            Amount Used for
                             Construction
        School                (In Thousands)                  Project Description
                                                   13 new (not replacement) classrooms
 Tiospa Zina Tribal                                plus library, garage, and athletic
  School                        $ 6,700            facilities to alleviate overcrowding
 Hopi High School                   344            New addition to the welding shop
 Cherokee Central                                  Replacement of a gymnasium and two
 Elementary School                 4,571           other school buildings
 Quileute Tribal
 School                           4,000            Replace a gymnasium
 Jicarilla Dormitory              4,750            Replace a dormitory
 Ramah Dormitory                  2,614            Replace a dormitory
 Navajo Preparatory                                Replace a shop building and an
  School                          4,874            addition to existing gymnasium
                                                   Replacement of six classrooms,
                                                   kitchen/dining facility, library, multi-
 Baclabito Day                                     purpose space, and administrative
 School                           2,921            offices
 Santa Fe Indian                                   Replace a math, science, and
 School                            3,847           technology building
 Kayenta Community
 Boarding School                  6,000            Replace a dormitory

         Total                  $40,621



RECOMMENDATIONS
We recommend that the Assistant Secretary for Indian Affairs:

1. Discontinue the practice of using FI&R funds for school construction at BIA-
operated schools.

2. Discontinue the practice of funding school construction with FI&R funds at grant
and contract schools without the required 25 percent funding contribution.

BIA Response            BIA agreed with Recommendations 1 and 2. However, BIA
                        caveated its agreement based on its interpretation of 25 U.S.C.
                        § 2503(b)(4)(A) that it is appropriate to use FI&R funds for:

                            ¾ Replacing a building or other component of a BIA


                                               5
                            operated school.
                          ¾ Replacing a building or other component of a tribal
                            operated school without requiring cost sharing, and
                          ¾ Replacing all major buildings that house the entire
                            academic and residential program of a ranked FI&R
                            project at a tribal operated school, “provided that the
                            tribe agrees to pay at least one quarter of the total cost
                            of the replacement school project, and the BIA is able to
                            obtain the remaining three-quarters of the cost.”

OIG Reply              BIA’s interpretation is that school construction means replacing
                       an entire school complex, not components of a school campus.
                       For example, replacing a gymnasium would not be new school
                       construction because the other school buildings were not
                       replaced. We understand that there are going to be instances
                       where it is more economical to replace a building rather than
                       repair it. BIA, however, has not provided sufficient basis for
                       its interpretation that FI&R funds may be used in the manner it
                       has described.

3. Determine whether BIA has the authority to collect the required 25 percent cost
share contributions from Indian tribes that used FI&R funds for replacement school
construction. If BIA has the authority, seek payment of the $10.2 million.


BIA Response           BIA did not concur with this recommendation. Instead, BIA
                       offered the following two reasons for not collecting the 25
                       percent contributions for five schools it identified as being
                       subject to potential collection as follows:

                         ¾ BIA identified three tribal-controlled schools as being in
                           compliance with the provisions of the United States
                           Code (25 U.S.C. § 2503(b)(4)). BIA noted those
                           schools’ compliance was based on the fact that, of the
                           three projects, a tribe had made 25 percent cost
                           contribution commitments on two projects and that the
                           third project was never approved for construction.

                         ¾ BIA noted for the remaining two schools that any
                           attempt by BIA to seek repayment of the tribal share
                           would result in an extreme hardship on the Indian tribes
                           and school boards. BIA stated construction had already
                           commenced and that these grants were provided by BIA
                           and received by the tribes in good faith and with
                           reasonable expectation of using the funds as agreed.




                                           6
OIG Reply   We consider this recommendation unresolved. BIA did not
            specifically address the recommendation to determine whether
            it had the authority to collect the required 25 percent cost share
            contributions from Indian tribes that used FI&R funds for
            replacement school construction. Our review identified 10
            tribal-controlled schools that received FI&R funds for new
            school construction. As stated in our reply to
            Recommendations to 1 and 2, BIA has not adequately
            supported its position on the use of FI&R funds. Concerning
            potential tribal or school board hardship, in the event BIA does
            not wish to seek cost recovery, it must follow the appropriate
            procedures for establishing and forgiving the debts. We are
            requesting the BIA reconsider the recommendation and provide
            the information requested in Appendix 4.




                                 7
This Page Intentionally Left Blank




                8
                                                                              Appendix 1



                   SCOPE AND METHODOLOGY
We performed a limited management control review of the FI&R program at the Office of
Indian Education Programs (OIEP) and the Office of Facilities Management and
Construction (OFMC). We limited the scope of this review because available staff
resources at the time were primarily focused on our original audit objective to evaluate
BIA’s process to plan and design replacement schools. We reviewed the use of FI&R
funds for fiscal years 2000 through 2002. During this period, we identified 16 major FI&R
projects with funding totaling about $94 million. Of this amount, we estimated that $52
million was used for 15 replacement construction projects (14 schools, 1 school had two
projects). We interviewed BIA and Department officials about the use of FI&R funds. We
obtained a legal opinion from our Office of General Counsel on the specific prohibitions
and exceptions for using FI&R funds for replacement school construction.

Except for the limited scope, we conducted the audit in accordance with the Government
Auditing Standards issued by the Comptroller General of the United States. We included
such tests of records and other auditing procedures as we considered necessary under the
circumstances.




                                             9
This Page Intentionally Left Blank




                10
                                                                                Appendix 2



                     PRIOR AUDIT COVERAGE
During the past 5 years, the Government Accountability Office (GAO) issued two audit
reports and the Office of Inspector General (OIG) issued three audit reports related to the
construction of Indian schools.

The GAO issued BIA and DOD Schools: Student Achievement and Other Characteristics
Often Differ from Public School, Report No. GAO-01-934, September 2001. A key issue
identified in this report was that BIA funding for maintenance and repair is less than
national guidelines. The GAO made no recommendations in this report.

The GAO issued School Facilities: Construction Expenditures Have Grown Significantly
in Recent Years, Report No. GAO/HEHS-00-41, March 2000. A key issue in this report
was that most of the increase in expenditures was for the construction of buildings. The
GAO made no recommendations in this report.

The OIG issued Construction Costs for Chief Leschi School, Puyallup Tribe, Puyallup,
Washington, Bureau of Indian Affairs, Report No. 01-I-237, March 2001. A key issue
identified in this report was that the school was constructed with $28.9 million of contract
and grant monies provided by BIA, but the Facilities Management and Construction
Center did not sufficiently monitor construction planning to identify variances between
the Program of Requirements (POR) prepared for the School and the construction design
specifications. The report made two recommendations: appropriate BIA officials (1)
monitor construction planning to ensure that the design specifications of schools comply
with the POR and (2) make a final determination on the allowability of the $785,310
erroneously paid for operation and maintenance for fiscal year 1997 through 2000 and
recover amounts determined to be unallowable. BIA concurred with both
recommendations.

The OIG issued Bureau of Indian Affairs School Construction Planning and Design
Process, Report No. 2003-I-0070, September 2003. OIG concluded BIA’s student
enrollment projection process generally produced inflated estimates. This occurred
because BIA had not developed or implemented adequate policies and procedures on how
to prepare, document, or review enrollment projections. Using inflated enrollment
projections to determine school size resulted in building schools that are too large. We
estimated that $37 million has been spent to build excess space at schools between 1993
and 1999 and another $74 million may be spent for excess space at schools currently
being planned and designed. We made six recommendations to correct the deficiencies
we identified. BIA concurred with all six recommendations and is taking actions to
correct and strengthen its planning and design process. BIA has implemented interim
guidelines for calculating enrollment projections for future replacement school
construction and has agreed to determine whether these guidelines can be applied to


                                            11
projects currently in the design and planning phase. In addition, BIA agreed to clarify the
enrollment projection process and develop, with tribal consultation, specific guidance on
how to review and document student enrollment projections.

The OIG issued Maintaining the Department of the Interior’s Facilities, A Framework
for Action, Report No. 2002-I-0008, December 2001. Two of the key issues in this report
were to implement actions to (1) take immediate steps to reduce the maintenance backlog
and (2) manage facilities proactively. The report stated that “the Bureau of Indian Affairs
has completed its initial round of condition assessments and has implemented a facilities
management information system for its education and administrative facilities.”




                                            12
     Appendix 3




13
14
15
This Page Intentionally Left Blank




               16
                                                             Appendix 4


 STATUS OF AUDIT RECOMMENDATIONS

Recommendations            Status                 Action Required

       1          Management concurs       Provide specific statutory
                  with recommendation;     authority supporting the
                  additional information   premise that for BIA-operated
                  needed.                  schools FI&R funds could be
                                           appropriately expended for the
                                           new construction of a single
                                           school building or building
                                           component if the school is not
                                           receiving an entirely new
                                           school facility.

                                           Absent such authority
                                           discontinue the practice of
                                           using FI&R funds for
                                           replacement school
                                           construction of single buildings
                                           and building components at
                                           BIA-operated schools.

                                           Provide estimated target date
                                           and title of the official
                                           responsible for
                                           implementation.

       2          Management concurs       Provide specific statutory
                  with recommendation;     authority supporting the
                  additional information   premise that for tribal-
                  needed.                  controlled schools FI&R funds
                                           could be appropriately
                                           expended for the new
                                           construction of a single school
                                           building or building
                                           component if the school is not
                                           receiving an entirely new
                                           school facility.




                              17
Recommendations           Status            Action Required

                                     Absent such authority
                                     discontinue the practice of
                                     using FI&R funds for
                                     replacement school
                                     construction of single buildings
                                     and building components at
                                     tribal-controlled schools.


                                     Provide estimated target date
                                     and title of the official
                                     responsible for
                                     implementation.

       3          Unresolved.        Reconsider the
                                     recommendation and provide
                                     estimated target date and title
                                     of the official responsible for
                                     implementation.




                                18
